Department of Homeland Security
   Ofﬁce of Inspector General

       DHS' Progress in Addressing Technical 

        Security Challenges at Washington 

            Dulles International Airport 

                    (Redacted)





 Notice: The Department of Homeland Security, Office of the Inspector General has redacted this report for public
 release. A review under the Freedom of Information Act (5 U.S.C. 552), will be conducted upon request.




OIG-09-66                                                                                           May 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                      May 7, 2009


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses DHS’ progress in strengthening technical and information security
policies and procedures at Washington Dulles International Airport in Virginia. It is
based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 

  CBP’s IT Security Controls Improve, But More Work Is Needed .................................4 

  Recommendations...........................................................................................................9 

  Management Comments and OIG Analysis .................................................................10 


    TSA’s IT Security Controls Improve, But More Work Is Needed ...............................11 

    Recommendations.........................................................................................................14

    Management Comments and OIG Analysis .................................................................15 


Appendices
   Appendix A:          Purpose, Scope, and Methodology..........................................................16 

   Appendix B:          CBP’s Management Comments to the Draft Report ...............................18 

   Appendix C:          TSA’s Management Comments to the Draft Report ...............................20 

   Appendix D:          CBP Single Points of Failure at IAD ......................................................24

   Appendix E:          Major Contributors to This Report ..........................................................25 

   Appendix F:          Report Distribution ..................................................................................26 


Abbreviations
     CBP                                    U.S. Customs and Border Protection      

     CIO                                    Chief Information Officer     

     DHS                                    Department of Homeland Security       

     DHS 4300A Handbook                     DHS Sensitive Systems Handbook 

     DHS Directive 4300A                    DHS Sensitive Systems Policy Directive 4300A 

     IAD                                    Washington Dulles International Airport     

     IT                                     Information Technology      

     LAN                                    Local Area Network 

     OIG                                    Office of Inspector General     

     POA&M                                  Plan of Action and Milestones     

     SSL                                    Secure Socket Layer     

     TCP                                    Transmission Control Protocol       

     TSA                                    Transportation Security Administration    

     UDP                                    User Datagram Protocol      

     UPS                                    Uninterruptible Power Supply      

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                         We initiated a program to determine the extent to which critical
                         Department of Homeland Security sites comply with the
                         department’s technical and information security policies and
                         procedures. In January 2007, we reported that information
                         technology security controls implemented by U.S. Customs and
                         Border Protection and the Transportation Security Administration
                         at Washington Dulles International Airport had deficiencies that, if
                         exploited, could result in the loss of confidentiality, integrity, and
                         availability of the automated systems used to perform their
                         mission-critical activities. We also identified actions that these
                         components could take to improve information technology
                         security.

                         We conducted a follow-up evaluation to determine whether
                         corrective actions for the reported weaknesses had been
                         implemented, and whether those actions comply with the
                         department’s and components’ technical and information security
                         policies and procedures. We performed onsite verification of the
                         corrective actions, interviewed department staff, and conducted
                         technical tests of internal controls.

                         The department has made significant progress in improving
                         technical security for information technology assets at Dulles.
                         However, further work is needed to comply with government
                         policies and procedures. For example, both components need to
                         make additional improvements in their operational controls over
                         the physical security of their information technology. We are also
                         recommending improvements in technical controls, including
                         updating servers with the latest release of the operating system
                         software. Implementation of these additional measures will
                         increase the technical security of departmental information
                         technology assets at Dulles.




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 1
Background
                        We designed our Technical Security Evaluation Program to
                        provide senior Department of Homeland Security (DHS) officials
                        with timely information on whether they had properly
                        implemented DHS information technology (IT) security policies at
                        critical sites. Our program is based on DHS Sensitive Systems
                        Policy Directive 4300A (DHS Directive 4300A), which applies to
                        all DHS components. It provides direction to managers and senior
                        executives regarding the management and protection of sensitive
                        systems. DHS Directive 4300A also outlines policies relating to
                        the operational, technical, and management controls that are
                        necessary for ensuring confidentiality, integrity, availability,
                        authenticity, and no repudiation within the DHS IT infrastructure
                        and operations. A companion document—DHS 4300A Sensitive
                        Systems Handbook (DHS 4300A Handbook)—provides detailed
                        guidance on the implementation of these policies.

                        DHS IT security policies are organized under management,
                        operational, and technical controls. According to DHS Directive
                        4300A, these controls are defined as follows:

                        �	 Operational Controls – Focus on mechanisms primarily
                           implemented and executed by people. These controls are
                           designed to improve the security of a particular system or
                           group of systems. These controls require technical or
                           specialized expertise and often rely on management and
                           technical controls.
                                                       **********
                        �	 Technical Controls – Focus on security controls executed by
                           IT systems. These controls provide automated protection from
                           unauthorized access or misuse. They facilitate detection of
                           security violations and support security requirements for
                           applications and data.
                                                      **********
                        �	 Management Controls – Focus on managing both the IT
                           security system and system risk. These controls consist of risk
                           mitigation techniques and concerns normally addressed by
                           management.

                        U.S. Customs and Border Protection (CBP) and the Transportation
                        Security Administration (TSA) each have activities at Washington
                        Dulles International Airport (IAD), a port of entry located in
                        Chantilly, VA. Both CBP and TSA rely on a range of IT assets to
                        support their respective missions.

 DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                             (Redacted)

                                               Page 2
                           CBP processes passengers and baggage on arriving international
                           flights at IAD by using information systems that include United
                           States Visitor and Immigrant Status Indicator Technology,
                           Automated Biometric Identification Systems, Custom
                           Modernization Prime Integration, and other secondary systems.
                           The CBP activities at IAD are conducted at the Main
                           Terminal-International Arrivals, C Terminal/Midfield, B Terminal,
                           Cargo Inspections, and two private terminals.

                           TSA also has operations at various buildings at IAD, including the
                           main terminal and a commercial office building. TSA activities
                           include screening passengers and baggage on all departing flights
                           at IAD.

                           In January 2007, we reported that the IT security controls
                           implemented by CBP and TSA at IAD had deficiencies that, if
                           exploited, could result in the loss of confidentiality, integrity, and
                           availability of the IT systems on which CBP and TSA rely to
                           perform their mission-critical activities. 1 Specifically, we reported
                           that CBP and TSA needed to improve operational, technical, and
                           management controls for their IT assets at IAD. Based on these
                           findings, we recommended that the DHS Chief Information
                           Security Officer instruct CBP and TSA to:

                           �	 Strengthen operational controls at CBP and TSA facilities at
                              IAD.
                           �	 Apply necessary software upgrades in a timely and expeditious
                              manner.
                           �	 Prepare the necessary plan of action and milestones (POA&M)
                              to resolve known and reported deficiencies in IT Security.
                           �	 Ensure that all systems, wireless communications, and group
                              users’ ID are appropriately authorized to operate.

                           The objective of this evaluation was to determine whether
                           corrective actions for the reported weaknesses had been
                           implemented, and whether those actions comply with the
                           department’s and components’ technical and information security
                           policies and procedures.




1
 Technical Security Evaluation of DHS Activities at Dulles International Airport, OIG-07-25,
January 2007.

    DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                                (Redacted)

                                                  Page 3
Results of Review 

       CBP’s IT Security Controls Improve, But More Work Is Needed
                CBP’s IT security controls have improved at IAD, but more work is
                needed to comply with DHS policies and procedures. Specifically, CBP
                improved its operational, technical, and management controls for IT
                equipment. For example, CBP implemented adequate POA&Ms to
                effectively address previously reported IT deficiencies at IAD.
                Additionally, group user accounts were disabled and all CBP systems
                were authorized to operate. Further, CBP disabled inactive physical ports
                on its routers and switches at IAD.

                However, more work is needed to address physical and environmental
                control deficiencies. CBP also needs to implement technical controls to
                ensure that it is using the most current version of operating systems.
                Further, CBP should ensure that system documentation includes
                information concerning vulnerabilities and accepted risks.

                Collectively, these deficiencies could place at risk the confidentiality,
                integrity, and availability of the data stored, transmitted, and processed by
                CBP at IAD.

                         Operational Controls

                         CBP improved operational controls to comply with DHS policies.
                         Specifically, CBP implemented temperature and humidity sensors,
                         added a second telecommunications circuit for path redundancy,
                         and disabled unused physical ports on the routers and switches at
                         IAD. However, CBP needs to do more to address operational
                         control deficiencies. For example, physical security control
                         improvements are needed to prevent unauthorized access to
                         telecommunications equipment. CBP also needs to improve
                         business continuity capabilities for times when power or
                         telecommunications outages affect IAD.




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 4
                       Physical Security Controls

                       CBP needs to improve physical security controls to prevent
                       unauthorized access to IT resources. For example, CBP has
                       telecommunications equipment in a room shared with non-DHS
                       tenants. While this room is locked, it is not under the control of
                       CBP officials, non-CBP staff has access keys, and the CBP
                       telecommunications equipment is not in a locked cabinet.

                       CBP telecommunications equipment in a waiting room is not
                       properly secured in a locked cabinet. This room is used by
                       international passengers waiting for CBP personnel to process
                       them for entry into the country. See figure 1.




                          Figure 1: Unsecured CBP telecommunications equipment on a wall in an
                                          international passenger waiting room.




                                                                                                       .
                       Further, CBP is not using the visitors’ sign-in logs that are now
                       installed in all of its local area network (LAN) and
                       telecommunications rooms.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 5
                           According to the DHS 4300A Handbook:

                                    “Access to DHS buildings, rooms, work areas, spaces, and
                                    structures housing IT systems, equipment, and data shall be
                                    limited to authorized personnel.”

                                    “Controls for deterring, detecting, restricting, and
                                    regulating access to sensitive areas shall be in place and
                                    will be sufficient to safeguard against possible loss, theft,
                                    destruction, damage, hazardous conditions, fire, malicious
                                    actions and natural disasters.”

                                    “Visitors log should be maintained and available for one
                                    year.”

                           Business Continuity Capability

                           CBP has taken steps to ensure continued passenger processing
                           during communications or power outages. For example, CBP
                           improved its business continuity capability by installing new
                           telecommunications lines and circuits at IAD. Specifically, two
                           circuits were installed, each with a different end point and each
                           from a different vendor. Routers at the two end-point locations
                           will be load-balanced and will provide redundancy for each other.
                           These actions are in response to our January 2007 report
                           concerning the lack of data communication redundancy.

                           CBP also has allocated funding to critical border sites to purchase
                           computers for emergency conditions. The IAD allocation allowed
                           for the purchase of 17 computers that can be used to process
                           passengers during a power failure or if the telecommunications
                           connection to the CBP data center is not available. In April 2008,
                           CBP staff cited the emergency computers as a compensating
                           control in an exception request for accepting the risk associated
                           with a cutoff of telecommunications services at IAD. 2

                           However, CBP currently has 65 Primary Passenger Processing
                           Lanes at IAD for 100% passenger-processing capacity. Going
                           from 65 lanes for processing passengers to 17 lanes with
                           emergency computers would reduce CBP’s passenger-processing
                           capability by 74%.



2
 The CBP information systems security manager has not approved any of the exception or waiver requests
for IAD that are cited in this report.

    DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                                (Redacted)

                                                  Page 6
                       Additionally, CBP has not completed all corrective actions to
                       comply with DHS policies and procedures. For example, each

                       (see Appendix D). In April 2008, CBP staff prepared a 6-month
                       waiver request to accept this risk while CBP installed the
                       equipment to resolve this deficiency.

                       Further, CBP has not developed plans to resolve all reported
                       deficiencies. For example, CBP does not have a backup power
                       supply for any of its buildings at IAD. Although CBP has installed
                       uninterruptible power supply (UPS) devices for all of its servers,
                       routers, and switches at IAD, these devices provide power only for
                       a limited period. UPS devices are not sufficient for the purpose of
                       operating CBP workstations following a power failure. However,
                       according to CBP staff, a backup power supply is unnecessary as
                       IAD receives power from two separate power substations.

                       CBP also does not have plans to remediate other operational
                       control deficiencies at IAD. For example, in April 2008, CBP staff
                       prepared policy exception requests accepting the risk



                       According to the DHS 4300A Handbook:

                                “DHS must have the capability to ensure continuity of
                                essential function under all circumstances.”

                                “For larger and more critical systems it may be appropriate
                                to have an electrical generator available for the most
                                critical of operational requirements.”




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 7
                       Environmental Controls

                       CBP does not regularly maintain and monitor the temperature and
                       humidity levels within its LAN rooms and telecommunications
                       closets at IAD. Specifically, many of CBP’s telecommunications
                       rooms had temperatures that exceeded 70 degrees Fahrenheit.
                       Additionally, on our June 2008 walk-through, we observed some
                       ad hoc ventilation methods in use, including floor fans and a
                       portable air conditioning unit.

                       According to the DHS 4300A Handbook:

                                “Temperature in computer storage areas should be held
                                between 60 and 70 degrees Fahrenheit.”

                       Inadequate heating, ventilation, and air conditioning capability in
                       these telecommunications closets increases the risk of damage to
                       CBP IT assets.

                       CBP purchased and installed several temperature and humidity
                       sensors at IAD in response to our January 2007 report. CBP also
                       provided information on plans to install IT cabinets that contain
                       fans. In April 2008, CBP staff prepared an exception request
                       accepting the risk associated with a lack of environmental
                       monitoring.

                       Technical Controls

                       We determined that CBP has improved its technical controls for
                       servers at IAD, but more work is needed to comply with DHS
                       policies. For example, CBP disabled inactive physical ports on its
                       routers and switches at IAD. However, CBP also needs to improve
                       its technical controls by:




                           �

                       Additionally, CBP Novell servers had open logical ports with
                       known vulnerabilities that were not documented in the site risk
                       assessment. Unnecessary open ports and services increase the risk
                       that malicious users may compromise CBP systems or allow
                       external attacks.


DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 8
                                                                                        CBP
                           personnel told us that they recognize the vulnerabilities associated
                           with these open ports and that they used the firewall as a
                           compensating control to block the threats associated with these
                           ports. 3 However, CBP has not documented the acceptance of this
                           risk and the associated compensating controls in the site-specific
                           security plans or risk assessments.

                           According to DHS Directive 4300A:

                                    “Components shall manage systems to reduce
                                    vulnerabilities through vulnerability testing, promptly
                                    installing patches, and eliminating or disabling unnecessary
                                    services, if possible.”

                           Management Controls

                           CBP resolved the management control deficiencies we reported in
                           January 2007. We did not identify any additional management
                           control deficiencies.

                  Recommendations
                           We recommend that the CBP Chief Information Officer (CIO) take
                           the following actions for CBP activities at IAD:

                           Recommendation #1: Implement physical security and
                           environmental controls to compensate for reported deficiencies.

                           Recommendation #2: Implement business continuity capabilities
                           to compensate for reported deficiencies.

                           Recommendation #3: Implement and document technical
                           controls and processes to compensate for reported deficiencies.




3
  CBP staff provided evidence that the firewalls block these ports. However, we did not independently test
these firewalls.

    DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                                (Redacted)

                                                  Page 9
              Management Comments and OIG Analysis
              CBP concurred with recommendations 1 through 3. These
              recommendations will be considered resolved but open pending
              verification of all planned actions.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 10
     TSA’s IT Security Controls Improve, But More Work Is Needed
              TSA’s IT security controls have improved at IAD, but more work is
              needed to comply with DHS policies and procedures. Specifically, TSA
              improved its operational, technical, and management controls for IT
              equipment. For example, operational controls at IAD were strengthened
              with the installation of locked cabinets, camera surveillance, and card
              readers for doors. TSA also reinforced its technical security controls by
              updating the secure socket layer (SSL) certificate for its servers at IAD.
              Additionally, TSA strengthened management controls by streamlining the
              TSANet system POA&Ms. Further, TSA updated the TSANet system
              boundaries to include the Office of Emergency Preparedness’ server at
              IAD.

              However, more work is needed to address our previously reported
              deficiencies. Specifically, TSA needs to take steps to restrict access to IT
              equipment at IAD and to strengthen technical security controls.

                       Operational Controls

                       We reported previously that TSA had not provided sufficient
                       physical security to prevent unauthorized access to TSA
                       telecommunications closets and desktop computers at IAD. Since
                       then, TSA has improved physical security controls by
                       implementing the use of locked cabinets, camera surveillance, and
                       entry/exit card readers. However, additional physical security
                       controls are still needed in several areas at IAD. For example,
                       TSA could strengthen controls to restrict access to its
                       telecommunications closet and a workstation in a passenger
                       screening area. Additionally, TSA should remove excess IT
                       equipment and boxes in its IAD LAN room. See figure 2.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 11
                                      Figure 2: Excess equipment stored in LAN room.

                       TSA has moved some of the excess equipment and restacked or
                       relocated boxes. Additionally, TSA has added a visitor log to the
                       room. Further, TSA provided detailed plans, flooring diagrams,
                       and pictures of a “cage structure” that TSA plans to purchase to
                       protect its IT equipment from harm. However, actual construction
                       of the cage has not started.

                       TSA telecommunications equipment located in a commercial
                       office building basement at IAD was not properly secured in a
                       locked cabinet

                                                                            Access to
                       this room and to TSA’s telecommunications equipment should be
                       controlled and limited.

                       Further, a workstation at IAD was not properly secured. (See
                       figure 3.) This workstation was adjacent to a TSA passenger
                       screening exit area, and its computer terminal connections were
                       clearly visible and accessible to the public.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 12
                             Figure 3: Unsecured workstation in TSA passenger screening area.

                       According to the DHS 4300A Handbook:

                                “Controls for deterring, restricting, and regulating access to
                                sensitive areas shall be in place and will be sufficient to
                                safeguard against possible loss, theft, destruction, damage,
                                hazardous conditions, fire, malicious actions, and natural
                                disasters.”

                       Technical Controls

                       TSA strengthened its technical controls at IAD, but additional
                       work is needed. For example, TSA corrected three of the six
                       technical control deficiencies that we reported in January 2007.




                       Unnecessary open ports and services increase the risk that
                       malicious users may compromise TSA systems or allow external
                       attacks. Additionally, operating systems that do not receive
                       required updates or patches are vulnerable and can be easily
                       exploited.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 13
                                                                               .

                           According to the DHS Directive 4300A:

                                    “Components shall manage systems to reduce
                                    vulnerabilities through vulnerability testing, promptly
                                    installing patches, and eliminating or disabling unnecessary
                                    services, if possible.”

                           Management Controls

                           TSA resolved the management control deficiencies we reported in
                           January 2007. We did not identify any additional management
                           control deficiencies.

                  Recommendations
                           We recommend that the TSA CIO take the following actions for
                           TSA activities at IAD:

                           Recommendation #4: Implement physical security and
                           environmental controls to compensate for reported deficiencies in
                           TSA’s LAN rooms, telecommunications closets, and airport
                           passenger screening workstation desks.

                           Recommendation #5: Implement and document technical
                           controls and processes to compensate for reported deficiencies.

                           Recommendation #6: Apply the necessary operating system
                           updates to systems operating at IAD.




4
  TSA staff provided evidence that the firewalls block these ports. However, we did not independently test
these firewalls.

    DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                                (Redacted)

                                                  Page 14
              Management Comments and OIG Analysis
                       TSA concurred with recommendations 4 through 6. These
                       recommendations will be considered resolved but open pending
                       verification of all planned actions.




DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                            (Redacted)

                                              Page 15
Appendix A
Purpose, Scope, and Methodology

                             As part of our program to evaluate, on an ongoing basis, the
                             implementation of DHS technical and information security policies
                             and procedures at DHS sites, we conducted a follow-up review of
                             DHS’ efforts to strengthen IT security controls at IAD. The
                             objectives of this review were to determine whether:

                                 �	 The DHS components had implemented action plans to
                                    correct the weaknesses we reported, and
                                 �	 Those action plans complied with the department’s
                                    technical and information security policies and procedures
                                    according to DHS Directive 4300A and its companion
                                    document, the DHS 4300A Handbook.

                             Our entrance and exit conferences were held with CBP and TSA
                             officials. Follow-up technical evaluations were conducted. DHS
                             components and OIG staff monitored security scans of the servers
                             using various software packages. Additionally, OIG staff
                             conducted scans to determine whether DHS components at IAD
                             were using wireless devices. 5

                             We reviewed applicable DHS and DHS component policies and
                             procedures, previously reported deficiencies, and corrective action
                             plans for the OIG reported weaknesses. Before performing our
                             onsite review, we used the components’ action plans and status
                             updates to identify the applicable locations for the IT assets, the
                             appropriate staff to interview, and where to conduct the technical
                             test for internal controls. Our onsite review included a physical
                             review of CBP and TSA space and interviews with the appropriate
                             staff. Our technical review included onsite reviews of server
                             security policies. Additionally, we reviewed guidance provided by
                             DHS to the components regarding patch management, operation
                             systems, and wireless security.

                             We provided both CBP and TSA with briefings concerning the
                             results of fieldwork and the information summarized in this report.
                             We conducted this review between June and October 2008.

                             We performed our work according to the Quality Standards for
                             Inspection of the President’s Council on Integrity and Efficiency
                             and pursuant to the Inspector General Act of 1978, as amended.

                             We appreciate the efforts of DHS management and staff to provide
                             the information and access necessary to accomplish this review.

5
    We did not find any wireless devices being used by CBP or TSA at IAD.

      DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                                  (Redacted)

                                                    Page 16
Appendix A
Purpose, Scope, and Methodology

                         Our points of contact for this report are Frank Deffer, Assistant
                         Inspector General for Information Technology, (202) 254-4100,
                         and Sharon Huiswoud, Director for Information Systems
                         (202) 254-5441. Major OIG contributors to the review are
                         identified in Appendix E.




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 17
Appendix B
CBP’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 18
Appendix B
CBP’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 19
Appendix C
TSA’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 20
Appendix C
TSA’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 21
Appendix C
TSA’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 22
Appendix C
TSA’s Management Comments to the Draft Report




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 23
Appendix D
CBP Single Points of Failure at IAD




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 24
Appendix E 

Major Contributors to This Report.



                         Sharon Huiswoud, Director, Department of Homeland Security,
                         Information Technology Audits

                         Kevin Burke, Audit Manager, Department of Homeland Security,
                         Information Technology Audits

                         Beverly Dale, Senior Auditor, Department of Homeland Security,
                         Information Technology Audits

                         Frederick Shappee, Program Analyst, Department of Homeland
                         Security, Information Technology Audits

                         Ravi Jindal, Management and Program Assistant, Department of
                         Homeland Security, Information Technology Audits

                         Kia Smith, Referencer




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport
                                              (Redacted)

                                                Page 25
Appendix F
Report Distribution


                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff for Operations
                         Chief of Staff for Policy
                         Acting General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         DHS Component Liaison
                         DHS Chief Information Officer
                         CBP Chief Information Officer
                         TSA Chief Information Officer

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




  DHS’ Progress in Addressing Technical Security Challenges at Washington Dulles International Airport

                                                Page 26
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
